U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                PUBLIC
               RELEASE


      NATIONAL OCEANIC AND
ATMOSPHERIC ADMINISTRATION

              Internal Controls over ERL’s
      Bankcard Program Need Improvement

       Audit Report No. DEN-11627-0-0001 / October 1999




                  Office of Audits, Denver Regional Office
October 28, 1999


MEMORANDUM FOR:               Louisa Koch
                              Deputy Assistant Administrator
                              Oceanic and Atmospheric Research



FROM:                         Johnnie E. Frazier


SUBJECT:                      Internal Controls Over ERL’s
                                 Bankcard Program Need Improvement
                              Final Audit Report No. DEN-11627-0-0001

As a follow up to our draft report, dated August 31, 1999, this is our final report on our audit of
bankcard program implementation and usage by two ERL laboratories in Boulder, Colorado. The
audit concludes that the two laboratories have weaknesses in internal controls and instances of
noncompliance with the Federal Acquisition Regulation, Part 13, “Simplified Acquisition
Procedures;” Commerce Acquisition Manual, Part 13, Chapter 1, as amended July 1, 1996,
“Commerce Purchase Procedures;” and Mountain Administrative Support Center Personal
Property Handbook. Our findings and recommendations appear on pages 3 through 8. NOAA
agreed with all findings and recommendations. Based on additional information provided by
NOAA, we deleted the finding and recommendation related to the use of blanket purchase
agreements. NOAA’s complete response is included as Attachment 3 to this report.

Your response, which concurred with the audit recommendations, constitutes the Audit Action
Plan required by Department Administrative Order 213-5. Should you have any questions, please
contact William R. Suhre, Regional Inspector General for Audits, at (303) 312-7650. We
appreciate the cooperation extended by your staff during our audit.

INTRODUCTION

In 1986, several federal agencies, including the Department of Commerce, conducted a pilot
project to evaluate the usage of bankcards. The pilot project was successful in identifying
opportunities for reducing administrative procurement costs. In 1989, the bankcard was made
available government-wide through a contract administered by the General Services
Administration. The objectives of the bankcard program are to (1) reduce procurement
administrative costs and improve management by expediting and simplifying small purchases, and
(2) improve internal controls to eliminate the fraud and abuse present in other small purchase
methods.
U.S. Department of Commerce                                             Report No. DEN-11627-0-0001
Office of Inspector General                                                            October 1999



Bankcard use was facilitated by the Federal Acquisition Streamlining Act of 1994, and Executive
Order 12931, which eliminated some requirements for purchases of $2,500 or less, known as
“micro-purchases,” and encouraged agencies to move the authority for making simple purchases
from procurement offices to program offices. Subsequently, a report by the U.S. General
Accounting Office1 found that the use of bankcards has skyrocketed, and “... using the purchase
card has helped government agencies achieve administrative savings and efficiencies, absorb some
of the impact of staffing cuts, and improve their abilities to fulfill their missions.”

While use of the bankcard has been encouraged by the Federal Acquisition Streamlining Act,
officials must ensure that bankcard usage complies with Federal Acquisition Regulation (FAR)
and Commerce Acquisition Manual (CAM) requirements. The Department’s Office of
Acquisition Management is responsible for overseeing the management of the bankcard program
within Commerce, and in turn, has delegated that authority to the Heads of Contracting Offices
(HCOs). The applicable HCO, a Mountain Administrative Support Center (MASC) official in
Boulder, further delegated purchasing authority to local ERL approving officials and individual
cardholders. HCOs, approving officials, and cardholders all have responsibilities to ensure that
the bankcard program is properly administered.

PURPOSE AND SCOPE OF AUDIT

We conducted the audit to determine whether ERL’s Space Environment Center (SEC) and
Environmental Technology Laboratory (ETL) were utilizing their bankcards in accordance with
FAR, Part 13; CAM, Part 13, Chapter 1; and MASC Personal Property Handbook.

Our audit covered the 12-month period ended September 30, 1998. We reviewed purchases
based on samples of all transactions by the two laboratories for fiscal year 1998. Additionally, we
reviewed applicable regulations, policies and procedures, examined documentation, management
reports and records, and interviewed officials as deemed necessary. We completed our audit
fieldwork in January 1999, and conducted our exit briefing in March 1999 after a courtesy
briefing to the HCO regarding SEC’s and ETL’s implementation of the bankcard program.

We reviewed administrative and accounting internal controls at SEC and ETL relating to their use
of the bankcard, including controls over the physical security and authorized use of the bankcards,
and the approval, ordering, and receipt of purchased items. We used random sampling techniques
for selecting transactions for review (see Attachment 1). We found that SEC and ETL need to
improve internal control practices as discussed in the “Internal Controls Over Card Use Needs to
be Improved” section of this report. As part of our audit, we interviewed a sample of cardholders
and examined their bankcard records for selected transactions (see Attachment 2).




       1
        GAO report number GAO/NSIAD-96-138, Acquisition Reform, August 1996.

                                                -2-
U.S. Department of Commerce                                             Report No. DEN-11627-0-0001
Office of Inspector General                                                            October 1999



In conducting our audit, we relied on computer-processed data and tested the accuracy of the
data by tracing the data to original source documents and by comparing it to data in other
documents. Based on our tests, we concluded that the data was sufficiently reliable for use in
meeting our audit objectives.

We also evaluated SEC’s and ETL’s compliance with laws and regulations applicable to the use
of government bankcards. We found instances where ETL and SEC did not comply with certain
requirements of CAM, as detailed in the “Internal Controls Over Card Use Need to be Improved”
section of this report. We noted no evidence of misuse of funds.

Our audit was conducted in accordance with generally accepted government auditing standards,
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.

INTERNAL CONTROLS OVER CARD USE NEED TO BE IMPROVED

Our audit noted weaknesses in SEC’s and ETL’s implementation of the bankcard program,
resulting in weaknesses in internal controls and instances of noncompliance with FAR, Part 13;
CAM, Part 13, Chapter 1; and MASC Personal Property Handbook.

ERL Needs to Require the Use of the Purchase Order Log

Most cardholders for SEC and ETL did not maintain the required purchase order log for bankcard
transactions. The log (provided in Attachment B of CAM) is the cardholder’s record of account
and is designed to provide all financial, administrative, and shipping data for each purchase card
transaction. Without utilizing the log to record all bankcard transactions when made, the
cardholders cannot adequately document, control, and reconcile purchase activity with the
bankcard statement and the approving officials cannot adequately determine whether the
transactions are appropriate and properly categorized. As a result, the laboratories are at risk for
unauthorized and improper procurements.

ERL Needs to Establish Controls to Request and Document Purchase Pre-Approvals

ERL did not establish a control for documenting pre-approval of significant bankcard purchases.
While ERL cardholders attempted to establish practices for obtaining pre-approval of certain
bankcard transactions, these procedures were inconsistently applied. Of 26 cardholders
interviewed, 2 cardholders claimed to get verbal approval for purchases over $2,500, 2
cardholders claimed to get verbal approval for transactions over $1,000, 1 cardholder claimed to
get approval for transactions over $500, 14 cardholders claimed to get approval for all
transactions (regardless of the amount), and 7 cardholders did not request approvals for any
transactions. Verbal approval of purchases was not documented.



                                                -3-
U.S. Department of Commerce                                               Report No. DEN-11627-0-0001
Office of Inspector General                                                              October 1999



In order to improve management control over significant bankcard transactions (over $2,500 and
those which result in the purchase of accountable property), ERL needs to establish standard
practices for obtaining pre-approval for significant bankcard purchases. The required approval
need not be administratively burdensome. An electronic e-mail message or other informal means
of documentation should be adequate.

ERL Needs to Better Control Accountable Property Purchased with Bankcards

Our review of accountable and/or sensitive property purchased with bankcards disclosed that the
cardholder’s selection of shipping destinations and the process for recording property varied and
could potentially cause a loss of accountability. Some cardholders have accountable property
shipped directly to the servicing property section for processing; the property is then recorded in
the property inventory. However, some cardholders have accountable or sensitive property
shipped from the vendor directly to themselves or to the requestor’s job site. In these cases, the
laboratory could lose accountability of the property since the property section would not have the
opportunity to inventory or record the property when it is received, and the cardholder could fail
to provide information to account for the property, a violation of CAM. We found the following
instances where some accountable and/or sensitive property purchased with bankcards was (1)
not recorded in inventory for an extended period of time by one cardholder, (2) was transferred to
users without documentation by one cardholder, and (3) was never recorded in inventory in at
least four instances.

For example, one cardholder picked up the purchased item from the manufacturer instead of
having it delivered directly to the shipping and receiving department. The cardholder then took
the item to a field site and did not process the required Property Transaction Form (CD 509) for
this item. In another case, when the accountable property was shipped directly to the cardholder,
the cardholder did not provide the shipping and other property information to the servicing
property section. The cardholder resigned a month later. As a result, this property was not
included in the inventory as accountable property.

Additionally, three cardholders allowed accountable property purchased with bankcards to be
transferred to users without adequate accountability documentation. For example, a computer
was loaned to a scientist in Germany doing research on an SEC project, two computers were
transferred to a university for use on a projected ETL project, and a printer was shipped to an
ETL employee on temporary duty in another location. However, there was no written
documentation to verify the loan or transfer of this property, resulting in a loss of accountability.

ERL Needs Controls for Bankcard Purchases on Contracts with Other Federal Agencies

ERL does not have controls for property accountability when using the bankcard for purchasing
property for projects contracted with other federal agencies. Some of these contracts provide that



                                                 -4-
U.S. Department of Commerce                                              Report No. DEN-11627-0-0001
Office of Inspector General                                                             October 1999



the other agency retain title to all property purchased for the project. As a result, the property
custodians have not tagged inventory or reported the property to the servicing property section
since the Personal Property Handbook does not have any accountability requirements for
property purchased for other federal agencies, resulting in a potential loss of accountability.

ERL Needs to Establish Controls to Avoid Splitting Bankcard Purchases

The lack of ERL and NOAA controls for purchasing items beyond the cardholder’s $25,000 limit
resulted in ETL splitting bankcard purchases. ETL used three cardholders at one time to
purchase the various components needed to complete a project since the cumulative cost of the
components exceeded individual cardholder limits. ETL’s use of three cardholders to purchase all
of the components in the amount of $56,598 on the same day, shows questionable use of the
bankcards.

In a second example, ETL used more than one cardholder, as well as CD-435 procurement
requests, to upgrade and build a piece of equipment at a cost of $50,626, resulting in split
purchases. NOAA issued guidance in a memorandum that suggests cardholders use the CD-435
procurement request form as another method of procurement if bankcard limits are reached.
However, use of the CD-435 has also lead to split procurements, since NOAA’s suggestion does
not require the cardholder to redo the entire procurement on the CD-435. CAM, Part 13,
Chapter 1, Paragraph 8.c.(4), prohibits split purchases where the cardholder intentionally divides
what should be a single purchase into two or more separate purchases on one or more occasions
to avoid purchase limitations.

ERL Needs to Improve Security Over Bankcards

Cardholders are required by CAM to keep their bankcards in a secure location. Nine SEC and 12
ETL cardholders interviewed did not keep their bankcards in a secure location, such as a locked
drawer or cabinet (see Attachment 2). A wallet or handbag is not considered an acceptable
secure location.

ERL Needs to Improve Bankcard Training

All cardholders are required to complete training deemed by the delegating official to sufficiently
address basic purchasing concepts. The CAM states that this training could be a standard course
or one customized to address unique needs or characteristics for the purchasing organization.
Additionally, CAM requires that all cardholders and approving officials review the polices and
procedures set forth in CAM and view the training video once every 24 months. Three SEC and
10 ETL cardholders interviewed were not familiar with the CAM, and 10 SEC and six ETL
cardholders interviewed had not viewed the training video within the previous 24-month period
(see Attachment 2).



                                                -5-
U.S. Department of Commerce                                               Report No. DEN-11627-0-0001
Office of Inspector General                                                              October 1999



Recommendation

We recommend that the Deputy Assistant Administrator, OAR, improve bankcard internal
controls by:

l requiring all cardholders to use the log as stated in the CAM to (1) record all transactions
   made, (2) provide support for transactions when necessary, and (3) reconcile the log with the
   bankcard statement.

l pre-approving transactions for individual purchases over $2,500 or those purchases which
   result in the acquisition of accountable property, using either initials of the approving officials
   on the log, or separate e-mail attached to the log.

l requiring all cardholders to ship accountable property purchased with the bankcard to their
   servicing property section and to provide the servicing property section any data not provided
   on the shipping documents as required by the CAM. In emergencies, we recommend that the
   approving official authorize the shipping of accountable property directly to the recipient and
   direct the cardholder to immediately provide copies of shipping documents and other property
   data to the servicing property section.

l directing cardholders and property custodians to process and maintain accountable property
   purchased for other federal agencies based on property accountability requirements during the
   duration of the contract, and transfer the property to the contracting agency at the end of the
   project when required by the contract.

l requiring all cardholders involved in large purchases to first determine the total cost to
   purchase equipment. If the cost exceeds one cardholder’s limit, then the cardholder should
   notify the requestor that the bankcard system cannot be used and that the requestor should use
   the Department’s purchase order form (CD-435) for the procurement.

l ensuring that all cardholders keep their bankcards in a secure location.

l obtaining assistance from the HCO to assist cardholders in becoming familiar with CAM
   through various training programs, and establish a training program to ensure that cardholders
   view the training video at least every 24 months.

SEC Needs to Improve Its Internal Controls

Internal controls are required to protect assets, ensure operating efficiency, and comply with
regulatory requirements. We noted the following conditions that indicate internal control
weaknesses specific to SEC: (1) two bankcard statements were not approved by an approving



                                                 -6-
U.S. Department of Commerce                                             Report No. DEN-11627-0-0001
Office of Inspector General                                                            October 1999



official, (2) 11 bankcard statements were not reviewed timely, and (3) four cardholders did not
maintain required documentation for either sole source justifications or competitive bids for
several transactions for the 24-month period required by the CAM (see Attachment 2).

Recommendation

We recommend that the Director, SEC, improve bankcard internal controls by requiring that:

l an approving official or designated alternative approve all bankcard statements prior to
   payment,

l bankcard statements are reviewed in time to meet prompt payment requirements, and

l all cardholders maintain supporting procurement documents for the CAM-required
   24 months.

ETL Needs to Improve Its Internal Controls

We noted the following conditions which indicate internal control weaknesses specific to ETL:
(1) on at least two occasions, finance and accounting officials were not notified when alternate
approving officials were used to approve bankcard transactions, (2) bankcard master account
summary reports were not maintained by any approving officials to monitor cardholders, (3) four
cardholders did not properly post or reconcile bankcard statements, (4) one bankcard file was not
properly closed when the cardholder terminated employment, and (5) one unauthorized employee
was allowed use of a bankcard (see Attachment 2).

Recommendation

We recommend that the Director, ETL, improve bankcard internal controls by requiring:

l approving officials to notify the finance and accounting office when alternate approving
   officials are used,

l approving officials to maintain bankcard reports to monitor individual cardholders,

l all cardholders to properly post and reconcile bankcard statements,

l approving officials to review terminating cardholder’s files as a required step during the
   employee’s out-processing, and

l all cardholders to ensure that only authorized employees use the bankcard.




                                                -7-
U.S. Department of Commerce                                             Report No. DEN-11627-0-0001
Office of Inspector General                                                            October 1999



NOAA’s Comments

NOAA concurred with the audit findings and recommendations contained in the draft audit
report. A copy of NOAA’s response is included as Attachment 3. NOAA stated that it will
ensure that all bankcard holders receive training pertaining to: (1) purchase order log
maintenance, (2) pre-approval of purchases, (3) shipping of accountable property, (4) purchases
of accountable property through contracts with other federal agencies, (5) splitting bankcard
purchases, (6) physical security of bankcards, and (7) cardholder training requirements. NOAA
will require written reports from each approving official indicating that the training has taken
place for their respective cardholders. Additionally, NOAA will require each organization unit to
develop written procedures for tracking personal property.

SEC agreed to develop new procedures and maintain established procedures to ensure all
bankcard statements are approved by the appropriate approving official and delivered to the
finance office in a timely manner, and documents are maintained for the required time period.
SEC plans to conduct an annual audit of all SEC cardholders.

ETL agreed to develop new procedures and maintain established procedures to ensure that the
finance office is notified of alternate approving officials, approving officials maintain bankcard
reports, cardholders properly post and reconcile bankcard statements, approving officials review
terminated cardholder’s files, and only authorized cardholders use the bankcard.

OIG Comments

We appreciate NOAA’s positive response to the draft audit report. The draft audit report stated
that the use of Blanket Purchase Agreements (BPAs) without considering small business set-
asides conflicts with the CAM requirement to reserve purchases between $2,500 and $100,000 for
small businesses. Based on further review, we determined that NOAA complied with FAR Part
8.4 when awarding the BPA, which negates the requirements detailed in FAR Part 13 and FAR
Part 19 that cardholders receive competitive quotations from small businesses prior to utilizing
BPAs. The BPAs were put in place by NOAA with GSA Federal Supply Schedule contractors.
GSA confirmed that the process complied with all aspects of FAR Part 8.4. As a result, we
withdraw the audit finding and recommendation from the final report.

Attachments

cc (w/att): Rica Semones, OAR Liaison, Environmental Research Laboratories
            Steven Clifford, Director, Environment Technology Laboratory
            Ernie Hildner, Director, Space Environment Center




                                                -8-
U.S. Department of Commerce                                              Report No. DEN-11627-0-0001
Office of Inspector General                                                             October 1999



                                                                                       Attachment 1
                                                                                        Page 1 of 2




                              Environment Technology Laboratory
                                     Bankcard Program
                                          FY 1998

                                                                Transactions
                                            Over         $2,500 to         Under
                                                                                           Total
                                         $5,000 (a)      $5,000 (b)      $2,500 (c)
 Bankcard Transactions                        58             58            2,938          3,054
 Selected for Review                          19             20                20           59
 Selected for Review (%)                     33%            34%              1%             2%
 Amount of Transactions                   $442,199        $164,038       $812,863       $1,419,100
 Amount Reviewed                          $137,111         $50,284         $7,423        $194,818
 Amount Reviewed (%)                         31%            31%              1%            14%

Notes:

(a) One in every three transactions was randomly selected for review, including the first
    transaction in the report, for a total of 19 transactions. All cardholders in this category were
    selected for interviews and all accountable property was physically verified.

(b) One in every three transactions was randomly selected for review, including the first
    transaction in the report, for a total of 20 transactions. Every other cardholder from the list
    of reviewed transactions was selected for an interview and all accountable property
    purchased by an interviewed cardholder was physically verified.

(c) One in every 147 transactions was randomly selected for review, including the last
    transaction in the report, for a total of 20 transactions. Every other cardholder from the list
    of reviewed transactions was selected for an interview and all accountable property
    purchased by an interviewed cardholder was physically verified.
U.S. Department of Commerce                                             Report No. DEN-11627-0-0001
Office of Inspector General                                                            October 1999



                                                                                     Attachment 1
                                                                                      Page 2 of 2




                                  Space Environment Center
                                     Bankcard Program
                                          FY 1998

                                                                Transactions
                                             Over         $2,500 to       Under
                                                                                         Total
                                           $5,000 (a)     $5,000 (b)    $2,500 (c)
 Bankcard Transactions                         26             36           862            924
 Selected for Review                           26             18            21            65
 Selected for Review (%)                      100%           50%          2.4%            7%
 Amount of Transactions                     $238,971      $100,259      $259,901       $599,131
 Amount Reviewed                            $238,971       $51,985       $10,944       $301,900
 Amount Reviewed (%)                          100%          51.9%         4.2%          50.4%

Notes:

(a) All transactions over $5,000 were selected for review. All cardholders in this category were
    selected for interviews and all accountable property was physically verified.

(b) The first and every other sequential transaction were randomly selected for review, for a total
    of 18 transactions. All cardholders in this category were selected for interviews and all
    accountable property was physically verified.

(c) The first and every 43rd transaction were randomly selected for review for a total of 21
    transactions. Every other cardholder in this category was randomly selected for an interview
    and accountable property purchased by cardholders selected for interviews was physically
    verified.
U.S. Department of Commerce                                            Report No. DEN-11627-0-0001
Office of Inspector General                                                           October 1999



                                                                                     Attachment 2
                                                                                      Page 1 of 2


                                  Space Environment Center
                                    Cardholder Interviews


l      A total of 27 SEC cardholders.

l      11 cardholders interviewed from the 12 cardholders selected for interviews.

l      One cardholder was unavailable for interview.

l      9 of 11 cardholders interviewed did not keep their bankcards in a secure area.

l      3 of 6 cardholders interviewed, with a purchase limit of $25,000, stated that they had not
       read and were not familiar with CAM.

l      10 of 11 cardholders interviewed had not viewed the training video within the previous
       24-month period.

l      7 of 11 cardholders interviewed did not use a purchase log for all bankcard transactions.

l      1 of 11 cardholders interviewed did not keep any type of purchase log.

l      6 of 11 cardholders interviewed used a purchase log only when a receipt was not available.

l      6 of 11 cardholders interviewed stated that they verbally obtained prior approval for
       bankcard purchases from their supervisor; however, there was no documentation to
       support these statements.

l      4 of 11 cardholders interviewed stated that they never received prior approval for
       bankcard purchases from their supervisor.
U.S. Department of Commerce                                            Report No. DEN-11627-0-0001
Office of Inspector General                                                           October 1999



                                                                                     Attachment 2
                                                                                      Page 2 of 2


                              Environment Technology Laboratory
                                    Cardholder Interviews


l      A total of 57 ETL cardholders.

l      15 cardholders interviewed from the 18 cardholders selected for interviews.

l      Three cardholders were unavailable for interview.

l      13 of 15 cardholders interviewed did not keep their bankcards in a secure area.

l      2 of 5 cardholders interviewed, with a purchase limit of $25,000, stated that they had not
       read and were not familiar with CAM.

l      2 of 5 cardholders interviewed, with a purchase limit of $25,000, stated that they had
       scanned through CAM but not read it in detail.

l      6 of 15 cardholders interviewed had not viewed the training video within the previous 24-
       month period.

l      12 of 15 cardholders interviewed did not use a purchase log for all bankcard transactions.

l      3 of 15 of cardholders interviewed did not keep any type of purchase log.

l      3 of 15 cardholders interviewed used a purchase log only when a receipt was not available.

l      6 of 15 cardholders interviewed used a purchase log only for telephone orders.

l      12 of 15 cardholders interviewed stated that they verbally obtained prior approval for
       bankcard purchases from their supervisor; however, there was no documentation to
       support these statements.

l      3 of 15 cardholders interviewed stated that they never received prior approval for
       bankcard purchases from their supervisor.
